                                  EVALUATION




 JUAN F. LUIS HOSPITAL
 AND MEDICAL CENTER




Report No.: VI-EV-OIA-0005-2012   September 2012
              OFFICE OF
              INSPECTOR GENERAL
              U.S.DEPARTMENT OFTHE INTERIOR

                                                                                SEP 1.9 2012
Memorandum

To:            Anthony M. Babauta
               Assistant Secretary for Insular Affairs

From:          Mary L. Kendall
               Deputy Inspector Genera

Subject:       Final Evaluation Report- Juan F. Luis Hospital and Medical Center
               Report No. VI-EV -OIA-0005-2012

       Our recent evaluation of the Virgin Islands Juan F. Luis Hospital and Medical Center
(JFLH) revealed that the hospital's historical financial management issues have reached a critical
juncture. Significant changes need to occur if the hospital is to continue to operate for the benefit
of Virgin Island citizens and visitors. JFLH needs to make some immediate decisions regarding
how best to balance its debt load with its revenue streams to preserve its future as St. Croix's
source of health care. Although major action is needed, JFLH also has some basic actions it can
take now to improve its fiscal condition

         Specifically, we offer 12 recommendations that, if enacted, could improve JFLH's
ability to generate a steady flow of revenue and thereby put it in a better position to reduce its
debt. We addressed the results of our evaluation to Governor deJongh, who responded to our
concerns with equal awareness of the situation, providing notification that JFLH had instituted
an internal action plan to track completion of actions related to these recommendations. Based
on his acknowledgement of our recommendations and his summary of JFLH' s
accomplishments, we compiled a table laying out the status of recommendations (appendix 4).

        In summary, recommendations 4 and 11 have been resolved for us through full
implementation. We consider the remainder of the recommendations resolved but not
implemented as demonstrated by JFLH' s own internal plan, which estimates various levels of
completion for each recommendation and reveals that full implementation remains somewhere
in the future.

        Due to the longstanding, pervasive nature of the issues described in our report and the
resulting risk facing the St. Croix health care system, we are requesting your assistance in
tracking improvements in this area. We recommend, therefore, that the Office of Insular
Affairs:

           1. Ensure that the Virgin Islands Government provides documentation that
              demonstrates implementation of much-needed and agreed-upon actions to
              revamp and strengthen the Juan F. Luis Hospital and Medical Center.



                                Office of Inspector General I W ashington, DC
       We also would appreciate your written response to this report within the next 30 days.
Please address your response to:

       Ms. Kimberly Elmore
       Assistant Inspector General for Audits, Inspections, and Evaluations
       U.S. Department of the Interior
       Office of Inspector General
       Mail Stop 4428
       1849 C Street, NW.
       Washington, DC 20240

        If you have any questions regarding this memorandum or the report, please do not
hesitate to contact me at 202-208-5745.


Attachment




                                               2
                                  EVALUATION

                                   Attachment




 JUAN F. LUIS HOSPITAL
 AND MEDICAL CENTER




Report No.: VI-EV-VIS-0002-2011   September 2012
              OFFICE OF
              INSPECTOR GENERAL
              U.S.DEPARTMENT OF THE INTERIOR

                                                                                 SEP 1.9 2012
The Honorable John P. deJongh, Jr.
Governor of the Virgin Islands
No. 21-22 Kongens Gade
St. Thomas, VI 00802

Subject:       Evaluation Report - Juan F. Luis Hospital and Medical Center
               Report No. VI-EV-VIS-0002-2011

Dear Governor deJ ongh:

        This report presents the final results of our evaluation of the Juan F. Luis Hospital and
Medical Center (JFLH). JFLH is the primary source of health care for St. Croix, but JFLH's
current fiscal crisis is jeopardizing the future of the hospital as an effective treatment facility.
JFLH has been forced to contrive unconventional fiscal arrangements to stay afloat while
overlooking fundamental steps it could take to mitigate its fiscal deficit. If JFLH is to continue
operations, comprehensive financial management changes are critical to help the hospital
balance revenue with expenses.

        Our evaluation offers two primary recommendation categories that focus on JFLH' s
management of revenues and expenses. We believe that implementing these recommendations
will provide JFLH ways to better manage its revenue cycle, including such basics as billing and
collection, as well as more effectively monitor its accounts payable and its other sources of
significant expense.

        Based on your office's response to the draft report (see appendix 3) we consider
recommendations 4 and 11 to be resolved and implemented, with no further action required.
We consider, however, that recommendations 1 to 3, 5 to 10, and 12 are resolved but not
implemented (see appendix 4). We are referring these recommendations to the U.S.
Department of the Interior' s Office of Insular Affairs to track implementation, with a request
that the Virgin Islands Government provides documentation that demonstrates implementation
of agreed-upon actions to revamp and strengthen JFLH.

        We appreciate the commitment to change that JFLH has exhibited in the past months and
the difference it already has made. If you have questions concerning this letter or the report, or
wish clarification concerning our recommendations, please contact Mr. Hannibal M. Ware,
Eastern Regional Manager, at 703-487-8058.




                                                 Mary L.
                                                 Deputy Inspector General


                                Office of Inspector General I Washington, DC
Table of Contents
Results in Brief ....................................................................................................... 1
Introduction ............................................................................................................. 2
Findings................................................................................................................... 4
     Management of Revenues ............................................................................... 4
       Patient Accounts Receivable....................................................................... 4
       Third Party Reimbursements ...................................................................... 5
       Internal Service Arrangements ................................................................... 5
       Stagnant Rates ............................................................................................. 6
       Noncompliance with the Centers for Medicare and Medicaid Services ..... 6
     Management of Expenses ................................................................................ 7
       Unsustainable Expenses .............................................................................. 7
       Recurring Expenses .................................................................................... 9
       Monitoring Costs ...................................................................................... 10
Conclusion and Recommendations ....................................................................... 14
     Conclusion ..................................................................................................... 14
     Recommendations ......................................................................................... 14
Appendix 1: Scope, and Methodology.................................................................. 18
     Scope ............................................................................................................. 18
     Methodology ................................................................................................. 18
Appendix 2: Questioned Costs.............................................................................. 19
Appendix 3: Virgin Islands Response................................................................... 20
Appendix 4: Status of Recommendations ............................................................. 37
Results in Brief
The Juan F. Luis Hospital and Medical Center (JFLH) of St. Croix historically has
conducted its operations in an environment of fiscal deficit. JFLH leadership has
been slow to respond to increasing annual financial losses and, in past years, has
practiced a business-as-usual approach to hospital management. JFLH’s limited
resources now have been eroded to the point where the hospital’s ability to
provide health care services may be seriously jeopardized. Current conditions
confirm the present chief executive officer’s recurring comments that “all systems
in the Hospital are either bruised or broken.”

During our evaluation, we found—

   •   Ineffective revenue cycle management, including billing and collection,
       precertification of services for patients, internal arrangements, and charge
       master updates;
   •   Noncompliance with the Centers for Medicare and Medicaid Services
       (CMS);
   •   Significant increases in expenses that did not correspond with increases
       in revenues;
   •   Ineffective management of debt; and
   •   Inadequate monitoring of payments on employee loans, contracts,
       agreements, leases, and purchase orders.




                                                                                      1
Introduction
Objective
The objective of our evaluation was to determine whether Juan F. Luis Hospital
and Medical Center (JFLH) carried out its administrative functions by minimizing
financial losses, collecting accounts and loans receivable, and securing contracts
that are in the best interest of the institution.

Background
JFLH is the only full service hospital on the island of St. Croix, U.S. Virgin
Islands. JFLH provides comprehensive primary, medical, and specialty health
care services, including acute, emergency, rehabilitative, cardiology, and
ambulatory care. Services are available 24 hours a day, 7 days a week, to meet the
needs of approximately 51,000 residents and more than 300,000 visitors annually.
JFLH exists through a partnership arrangement with the Government of the
Virgin Islands (GVI) to encourage the hospital’s self-sufficiency as a goal and to
manage health care delivery. JFLH has a long-standing financial deficit and has
reported annual operating losses averaging $35 million from fiscal year 2005
through fiscal year 2010. GVI provided the hospital with an annual average of
$26.7 million over the same period to offset some of the losses and help the
hospital meet its legal requirement to care for patients who could not otherwise
afford medical visits (figure 1).

                 Medical Center Operating Losses vs. GVI Appropriations
                                            (in Millions)


                  $45.0
                  $40.0
                  $35.0
                  $30.0
                  $25.0
                  $20.0
                  $15.0
                  $10.0
                   $5.0
                   $0.0
                            2005    2006     2007       2008    2009    2010
       Operating Loss       $26.5   $32.9    $31.7      $35.4   $44.1   $39.7
       GVI Appropriations   $17.5   $23.8    $28.0      $32.0   $26.4   $27.0

Figure 1.

                                                                                     2
Annual GVI appropriations to JFLH were tied to salaries, utilities, and special
programs like the nursing school and energy initiatives, and were presented on
JFLH’s financial statements as tax appropriations. In addition to these tax
appropriations, every year during the same period of 2005 to 2010, GVI directly
paid JFLH vendors and contractors for specific major equipment or capital
improvements, like the cost of building the cardiac center. These additional
appropriations averaged $900,000 annually, totaling more than $5 million during
the 6-year period.




                                                                                  3
Findings
The combination of revenue shortfalls and the expense of running an island
hospital that is mandated to provide care to all individuals regardless of their
ability to pay has led to significant operating losses for JFLH. Equally significant
has been JFLH’s inability to effectively control its expenses relative to the amount
of revenue it generates. Continued unbalanced spending has eroded the hospital’s
ability to pay for many of its critical services and now threatens its ability to meet
community needs.

Claims of patient neglect and neglect of physical hospital security in the areas of
nursing and surgery services illustrate JFLH’s weakened capacity to supply the
community with appropriate health care. These claims made by the Centers for
Medicare and Medicaid Services (CMS) in June 2011 have further jeopardized
JFLH’s status and placed more than 50 percent of patient revenues in jeopardy.

In spite of both its historical and current fiscal challenges, JFLH still can mitigate
its current state of deficit if it takes immediate and comprehensive measures to
improve its management of revenues and expenses.

Management of Revenues
JFLH’s chronic inability to generate a steady flow of revenue has been a major
contributor to its current fiscal position. Although JFLH faces annual losses in the
tens of millions of dollars, it has not taken sufficient steps to ensure that patient
accounts receivable, third-party reimbursements, and internal service agreements
have been collected in a timely, effective manner. In addition, JFLH has not
raised its rates to reflect current health care costs.
Patient Accounts Receivable
The efficient handling of accounts receivable is critical to the financial health of
any hospital, because these accounts are a primary revenue source. Yet JFLH
continues to struggle with the management of these accounts. As of December
2011, patient accounts receivable were valued at more than $68 million. After
allowances had been made for accounts deemed uncollectible and for normal
adjustments made by third-party insurers, JFLH valued their outstanding patient
accounts receivable at roughly $11.5 million. This disparity between actual
receivables and what JFLH views as collectible underscores JFLH’s difficulties
with obtaining payment for services rendered.

Responsibility for collection of patient accounts covered by health insurance,
historically the easiest accounts to collect, is handled by JFLH staff. For services
provided to uninsured patients, JFLH contracts with two private companies.
We reviewed a sample of 24 individual accounts valued at $1.8 million. We found
that JFLH’s collection efforts were neither timely nor rigorous in half of the
accounts reviewed. These accounts were the responsibility of JFLH since they
belonged to patients covered by health insurance. For example—
                                                                                       4
   •   A patient discharged in October 2010 with a bill of $342,780 had medical
       coverage under CIGNA (the insurance policy held by Virgin Islands
       Government workers), as well as secondary coverage through Medicaid.
       JFLH took 4 months to issue a final bill. CIGNA paid $249,640, in
       addition to the patient’s own prepaid amount of $410, leaving a balance of
       $92,730. As of September 2011, JFLH had failed to submit a claim to
       Medicaid for reimbursement of the remaining amount.

   •   A patient covered by the Virgin Islands Worker’s Compensation
       Administration (WCA) was discharged in October 2006 after incurring a
       bill of $13,020. JFLH issued a final bill in October, but did not
       consistently follow through with efforts to collect. Although JFLH sent a
       few follow-up reminders during the early months of the overdue bill, no
       telephone inquiries, resending of bills, or enforcement letters encouraging
       collection took place for 2 years while the bill remained unpaid. When we
       notified the JFLH business office, the manager responded that WCA
       usually takes 1 to 3 years to reimburse. As of March 2012, more than five
       years after a final bill was issued, JFLH still had not been paid.

Third Party Reimbursements
Reimbursements from the Veteran’s Administration (VA) and CIGNA account
for 29 percent of JFLH’s annual patient revenues. JFLH has an ongoing
relationship with these insurance providers and is familiar with their policies and
criteria for reimbursement. Both providers require precertification to initiate
insurance coverage. The precertification process consists of a simple telephone
call from JFLH to the VA or CIGNA office, notifying staff of JFLH’s plan for
medical treatment or procedure. This step is critical to ensure that all revenues due
to JFLH will be collected. We found instances where JFLH did not receive
reimbursement due to administrative failures to pre-certify patients. For
example—

   •   JFLH issued a final bill of $229,860 for a patient discharged in August
       2009. Although the patient was hospitalized for 261 days, VA only
       reimbursed $8,710 for the first 10 days. VA denied the balance because
       JFLH failed to pre-certify, causing JFLH to lose $221,150 in revenues.
       JFLH issued a bill of $24,800 to CIGNA for a patient discharged in
       January 2010. CIGNA did not honor the bill because JFLH failed to pre-
       certify the patient.

Internal Service Arrangements
JFLH contracted with a company to analyze pathology specimens for private
physicians using JFLH’s laboratory. The contract stipulated that JFLH be paid
$25 for each specimen no later than the tenth day of the month following the
service. The contract also required that payment be accompanied by a statement
of services rendered to private physicians.

                                                                                   5
While payments resulting from this contract may have been considered a viable
source of revenue, we found that JFLH failed to implement checks and balances
to ensure accuracy and receipt of all revenues billed for services rendered. We
found several instances where the company failed to submit either statements for
services rendered or corresponding payments. In these instances, JFLH had no
idea how much the hospital should have received. Administrative staff also never
followed up to determine the revenue owed to JFLH.

We also found instances where the contractor submitted statements, but did not
submit payments. Based on the statements we reviewed, the company owed JFLH
at least $16,150 for services provided. JFLH did not know any money was owed
until we brought it to their attention.

Throughout the life of this contract, JFLH never accessed pathology records
maintained in its own laboratory to cross-reference the accuracy of statements and
payments submitted by the contractor.

Stagnant Rates
In light of rising healthcare costs, hospitals regularly review their charges to
ensure that their rates reflect current costs. According to a study conducted for the
Medicare Payment Advisory Commission, hospitals customarily review at least
some charges annually. JFLH’s CEO confirmed that, in spite of steadily
escalating expenses, JFLH had not revisited its hospital charges for 5 years until it
conducted a review of its charge master, which is a list of a hospital's prices for
every procedure performed and every supply item used during those procedures.
JFLH’s charge master review resulted in a rate increase that began in August
2011.

A February 2012 meeting with the CEO indicated that JFLH plans to regularly
review rates to capture the true cost of providing healthcare and to respond to
JFLH’s serious fiscal position. The CEO also noted the planned initiation of a
new rate increase in March 2012.

Noncompliance with the Centers for Medicare and Medicaid Services
Significantly challenged with revenue generation at multiple levels of hospital
management, JFLH currently faces the potential loss of what has been a reliable
source of patient revenue. In excess of 50 percent of JFLH’s patient revenue has
been generated from patients covered by CMS. CMS covers patient services, as
long as JFLH maintains its CMS certification. Instances of patient neglect and
neglect of physical security in the areas of nursing and surgery services have
jeopardized JFLH’s status and placed these revenues at risk. To continue its
eligibility to receive CMS funding, JFLH negotiated a 3-year agreement with
CMS that requires a plan of correction.

JFLH has implemented a plan to protect this major source of patient revenue and
is working toward full compliance. JFLH must meet the terms of its agreement to
ensure future funding.
                                                                                   6
 Recommendations

        To address the management of revenues to stabilize its financial
        resources, JFLH, at a minimum, should:
        1. Consistently apply collection procedures, including timely follow-
           ups on unpaid bills to all primary and secondary insurance carriers;

        2. Comply with precertification and disclosure regulations set forth by
           certain insurance carriers, such as CIGNA and VA, to increase the
           likelihood of reimbursement;

        3. Closely monitor all revenue-generating arrangements to ensure all
           revenues due are efficiently collected;

        4. Frequently review rates to capture the rising cost of providing
           health care services; and

        5. Fully implement the terms of the agreement with CMS to ensure
           future Medicare and Medicaid funding.


Management of Expenses
JFLH’s financial position also has deteriorated due in large part to its inability to
balance expenses against revenue. Although strapped for cash, JFLH has not
exercised fiscal restraint. The resulting debt has hindered payment of outstanding
bills as they come due and plunged the hospital into an ever-deepening cycle of
untimely payments that require both service charges and late fees, and jeopardize
long-standing relationships with vendors. In addition, JFLH has not properly
monitored its agreements to lessen the frequency of overpayments, pre-payments,
and unsupported payments.

Unsustainable Expenses
JFLH’s independent financial auditors conducted a 6-year analysis focusing on
financial data between 2004 and 2009. The analysis, presented at a June 2010
board meeting, demonstrated that JFLH’s operating expenses towered over
operating revenues (figure 2).




                                                                                    7
                    JFLH Patient Revenues vs Operating Expenses
                                           (in Millions)



                $80.0
                $70.0
                $60.0
                $50.0
                $40.0
                $30.0
                $20.0
                $10.0
                 $0.0
                       2004        2005       2006         2007    2008    2009
       Total Operating
                       $24.8       $26.9      $29.0        $31.4   $35.1   $32.4
         Revenues
       Total Operating
                       $50.8       $53.5      $61.9        $63.1   $71.2   $76.3
         Expenses
Figure 2.

The auditors explained that although JFLH now served fewer patients (patient
days decreased by 21 percent), full-time employment had increased by 23 percent
and the average salary increased by 20 percent. The study attributed the increase
in full-time employment to the cost of additional personnel handling tasks other
than direct patient care.

Our review of JFLH financial reports showed that while operating expenses
increased by a rate of 33.4 percent, operating revenues increased only by 23.5
percent over the same period. Disparity between patient revenues and expenses
increased JFLH’s dependency on GVI appropriations, while threatening its ability
to meet its financial responsibilities without exploring other options such as
restructuring its staffing levels.

We obtained studies performed by CMS, which showed that when compared to
similar hospitals, the number of full-time employees per occupied bed at JFLH
was unusually high. Between fiscal years 2007 and 2010, JFLH averaged more
than nine employees per occupied bed. Over the same period, the hospitals in
CMS’s control group averaged about eight full-time employees. This difference
of one employee, averaged over the total number of hospital beds, creates
significant additional staff. While the number of employees per occupied bed does
not define hospital efficiency in and of itself, in a cash strapped environment, it is
a prime indicator of inflated employee costs, and reinforces the analysis of
JFLH’s independent auditors.


                                                                                    8
Recurring Expenses
As of December 31, 2011, JFLH owed 185 vendors approximately $29 million.
This amount continues to balloon because JFLH’s does not pay its vendors on
time. In order to remain afloat, JFLH has been forced to adopt unconventional
terms to manage its debt. It has accepted inflated costs for much-needed
pharmaceuticals, as well as burdensome financing terms from vendors. These
terms have created a vicious cycle of deficit management that plunges JFLH
deeper into debt.

Our review disclosed that JFLH is sometimes forced to purchase pharmaceuticals
from secondary vendors when nonpayment of debt strains its relationship with its
primary vendor. Even though this primary vendor grants reduced costs and
extended payment terms, the vendor now requires prepayment for
pharmaceuticals due to JFLH’s history of nonpayment of bills. Strapped for cash,
JFLH has turned to secondary vendors for its pharmaceutical supplies. Ironically,
these vendors purchase JFLH’s order from the same primary vendor and then pass
cost and markup on to JFLH.

An in-house price comparison conducted for JFLH’s hemodialysis unit revealed
that purchasing pharmaceuticals from a secondary vendor can cost up to $17,000
more per month for only one drug. Another analysis conducted in April 2011,
again by a JFLH in-house committee, determined that the hospital potentially
expended $75,000 more per month when the hospital purchased pharmaceuticals
from secondary vendors, which amounted to $900,000 annually. The analysis also
revealed that cash flow woes forced JFLH to purchase pharmaceuticals from
secondary vendors up until April 2011.

Since then, JFLH has struggled to purchase at least 80 percent of its
pharmaceuticals from its primary vendor in an effort to reduce costs. This action
was taken to address extraneous costs applied to purchases by secondary vendors
and demonstrates one action taken by the hospital to address its debt load. Any
fluctuation in JFLH’s tenuous financial position, however, will force it back into
inflated payments.

We also found that vendors added significant finance charges based on JFLH’s
history of making late payments. For example, a vendor contracted to recruit and
place qualified healthcare professionals now requires JFLH to make weekly
payments to cover finance charges. Our review of all weekly finance charges
made to this vendor in fiscal years 2009 to 2011 revealed that payments grew
from roughly $2,700 in 2009 to $9,700 in 2011. The financing terms required by
this vendor were not part of the original contract agreement or any other
supplemental agreement. Rather, they were outlined in an email that billed for the
finance charges. JFLH either had to accept the terms and pay the weekly finance
charges or face the risk of losing its traveling healthcare professionals, which
comprised a significant portion of the hospital’s overall staff. During the past 3
years, JFLH has made payments in excess of $670,000 in finance charges alone

                                                                                     9
and, as of December 2011, had an outstanding balance of $3.6 million owed to
this vendor.

JFLH also incurred debt due to its partnership agreement to meet patient needs for
specialized medical equipment. The hospital entered into a partnership to
establish and operate a spiral CAT scanner, MRI equipment, and a diagnostic lab.
JFLH agreed to pay this partner for all referrals. Historically, uninsured patient
accounts are the most difficult to collect. Because of this agreement, JFLH’s debt
to its partner has ballooned to $5 million since 2007. At the close of our
evaluation, JFLH had met with its partner and had offered a settlement of $1
million.

In addition to the expenses listed above, JFLH also incurred $50 million in debt to
GVI. Since the beginning of fiscal year 2000, GVI has extended additional salary
and benefit payments for other JFLH employees (not included in the annual
appropriation), averaging more than $4 million annually. GVI extended this
particular cost, however, with the expectation of reimbursement. Due to JFLH’s
weak financial position, it could not reimburse GVI, accumulating arrears of more
than $50 million. At the close of our evaluation, GVI had forgiven the debt. In
light of GVI’s current fiscal condition, in which hundreds of GVI employees have
been laid off and threats of payless paydays loom, JFLH cannot continue with
business as usual and expect continued GVI bailouts. This not only creates a
strain on JFLH but on GVI as a whole.

Monitoring Costs
In times of fiscal austerity, minimizing costs necessitates careful scrutiny of every
dollar spent. We found, however, that JFLH did not regularly monitor its costs.
We questioned $2.1 million in employee loans, overpayments, payments made
without valid agreements or supporting documentation, and payments made for
services that were never received. Each instance could have been avoided had
JFLH properly scrutinized or monitored money expended.

Employee Loans
Since JFLH’s expenses far exceed its revenues, the hospital has a fiduciary
responsibility to ensure the careful use of its limited resources. For instance, JFLH
distributed more than $211,000 in employee loans intended to serve as salary
advances from 1999 to 2004 and again from 2010 to 2011. New employees
waiting for their first checks, as well as tenured employees facing financial
hardship, received these loans. Many loans, however, were never repaid and
several of the employees are no longer employed by JFLH.

During our evaluation, we notified JFLH’s CFO about these issues. The CFO
began to personally contact those who had not repaid their salary advances.
Although letters were issued in September 2011, an outstanding balance of
$116,800 remains. We learned that the Financial Services director is collaborating
with JFLH’s legal counsel to send out enforcement letters demanding payment.
JFLH has now discontinued the practice of issuing employee loans.
                                                                                  10
Overpayments
We found that JFLH made $67,000 in overpayments to employees and contractors
because no one reconciled outgoing payments with the terms of established
agreements. For example, an employee temporarily acted in an executive
management level position from October 2009 to December 2010. Although no
longer acting in that position after it was filled in January 2011, the employee
continued to receive elevated compensation until August 2011. This resulted in an
overpayment of $35,700 that has not been repaid.
In another example, a security officer had a contractual agreement with JFLH that
cited $16 per hour as the rate of pay. Our review revealed that the officer actually
received $25 per hour, resulting in an overpayment of $9,800. Because no one
reconciled outgoing payments, JFLH was unaware of the discrepancy until we
brought it to the CFO’s attention. Once notified, the CFO initiated a payment plan
with the security officer to recoup the overpayment.

Payments Without Valid Agreements
JFLH did not always ensure that it made payments based on valid agreements.
Failure to do so gave JFLH limited recourse in instances of nonperformance or
overpayment, resulting in $68,690 in payments made without valid agreements.
For example, JFLH entered into an agreement with a construction company to
perform roofing repairs in January 2011. Rather than use a contract that had been
reviewed and monitored according to normal procurement practices, JFLH issued
a purchase requisition worth $72,700. JFLH gave the company an upfront
payment of $36,300, but the company never showed up to perform the work.

Only after our December 2011 inquiry, essentially a year after the original
requisition had been signed, JFLH issued a demand letter. In February 2012,
JFLH and the company owner resumed talks to consider additional roofing work
to offset the money received. At the close of our evaluation, we learned that the
owner had proposed that JFLH enter into subsequent agreements and make partial
discounts until the original agreed sum had been paid in full. If JFLH ultimately
agrees, it will have to make additional payments to this company and run the risk
of nonperformance once again.

In another example, JFLH hired a second security officer without an employment
contract or a Notice of Personnel Action. A review of personnel files disclosed
that JFLH intended to pay the security officer the standard rate of $16 per hour,
but the officer was actually paid at the rate of $25 per hour. The discrepancy
enabled the officer to receive $13,600 without a contract and $4,900 in excess of
the intended amount. Again, JFLH had been unaware of the discrepancy until we
brought it to the attention of hospital staff. At that time, the security officer was
no longer employed at JFLH.




                                                                                   11
Payments Without Supporting Documentation
We found that JFLH did not always obtain supporting documentation from its
contractors to justify costs. Instead, JFLH paid down its debt on the sum it had
been billed without determining the legitimacy of the charges. For example, we
found that a contractor received travel reimbursements totaling $12,865, although
he did not provide supporting documentation with corresponding invoices. In one
instance, the contractor submitted an invoice for travel charges of $8,170. When
we compared the contractor’s travel dates to workdays claimed, we discovered
that the contractor did not provide any service to JFLH for the first 14 days of
travel. A simple review would have alerted JFLH to the unsupportable charges.

We also found instances where JFLH made payments without a record of
supporting documentation from contractors. Therefore, the hospital did not know
if it had overpaid for products or received all of the products it had paid for. For
example, we reviewed eight payments made to a pharmaceutical vendor. JFLH
officials could not provide us with invoice statements for five of the payments or
with receiving reports for any of the eight payments, which totaled $1.7 million.
In almost every instance where we notified JFLH management of shortcomings
with their monitoring of payments, they worked immediately to resolve the issues
and rectify the problem areas.




                                                                                  12
Recommendations

     To fiscally stabilize JFLH by addressing the management of expenses,
     JFLH, at a minimum, should:

     6. Review staffing levels to determine potential alternatives that
        accommodate sustainable revenue streams;

     7. Negotiate with major creditors to create better repayment terms
        and lower accounts payable balances;

     8. Enforce collections on employee loans to recoup outstanding
        balances from current and former JFLH employees;

     9. Monitor contracts, agreements, leases, and employment terms to
        prevent overpayments and the issuance of payments without valid
        contracts;

     10. Uniformly enforce reimbursement for overpayments in the form of
         employee incentives and wages;

     11. Adhere to internal rules and regulations by securing contracts for
         purchases and services; and

     12. Ensure the receipt, review, and filing of supporting reports for all
         purchases and services provided to JFLH. All pharmaceuticals
         should be accounted for and verified as received to ensure that
         JFLH took possession of all items paid for.




                                                                                13
Conclusion and Recommendations
Conclusion
JFLH has no quick solution that it can use to balance ongoing expenses against
incoming revenue. A chain reaction of difficulties has deepened and made more
complex the fiscal adaptations required by hospital management to balance the
growing deficit. Sweeping changes are necessary for JFLH to successfully
mitigate long-standing fiduciary challenges. JFLH is a central force in providing
the health care needs of the St. Croix community. To serve this community
effectively, JFLH can no longer overlook potential revenue sources while
charging expenses against unidentified income. We believe that, to continue as an
effective source of health care for its community and the visiting public, JFLH
needs to consider the many positive changes that can be instituted by rigorous
daily attentiveness to good fiscal practices.

Recommendations
To address the deficiencies identified in this report, we recommend that the
Governor of the Virgin Islands ensures that JFLH will:

1. Consistently apply collection procedures, including timely follow-ups on
   unpaid bills to all primary and secondary insurance carriers.

  VI Response: The Governor concurred with this recommendation, indicating
  that a revenue cycle team has been formed at JFLH to capture and collect all
  charges. An internal action plan prepared by JFLH noted that this
  recommendation was about 90 percent implemented.

  OIG Reply: We consider this recommendation resolved but not implemented.

2. Comply with precertification and disclosure regulations set forth by certain
   insurance carriers, such as CIGNA and VA, to increase the likelihood of
   reimbursement.

  VI Response: The Governor noted that JFLH concurred with this
  recommendation. JFLH’s internal action plan indicates that this action is being
  handled by its revenue cycle team and that it was approximately 90 percent
  complete.

  OIG Reply: We consider this recommendation resolved but not implemented.
3. Closely monitor all revenue-generating arrangements to ensure all revenues
   due are efficiently collected.

  VI Response: The Governor concurred with this recommendation, indicating
  that JFLH representatives have met with all involved parties. JFLH noted on its

                                                                                  14
  internal action plan that this recommendation was less than 70 percent
  complete.
  OIG Reply: We consider this recommendation resolved but not implemented.
4. Frequently review rates to capture the rising cost of providing health care
   services.

  VI Response: The Governor concurred with this recommendation, noting that
  JFLH has identified a charge capture coordinator to ensure each department’s
  changes are being recorded and captured. JFLH also has implemented the last
  phases of its charge capture software.

  OIG Reply: We consider this recommendation resolved and implemented.

5. Fully implement the terms of the agreement with CMS to ensure future
   Medicare and Medicaid funding.

  VI Response: The Governor concurred with this recommendation, responding
  that JFLH had entered into agreements to specifically improve Chronic
  Dialysis, Patient Care Assessment, Wound Care Management, and Nursing
  care and leadership. JFLH’s internal action plan noted that this
  recommendation was about 90 percent complete.
  OIG Reply: We consider this recommendation resolved but not implemented.
6. Review staffing levels to determine potential alternatives that accommodate
   sustainable revenue streams.

  VI Response: The Governor concurred with this recommendation, noting
  JFLH’s ongoing efforts to review and make changes to staffing levels. JFLH
  has demonstrated a 17.4 percent reduction in cost from a month-to-month
  comparison. Its internal action plan noted that this recommendation was about
  90 percent complete.

  OIG Reply: We consider this recommendation resolved but not implemented.

7. Negotiate with major creditors to create better repayment terms and lower
   accounts payable balances.
  VI Response: The Governor concurred with this recommendation, noting
  JFLH’s ongoing efforts to negotiate with accounts payable creditors for debt
  relief. JFLH’s internal action plan rated the progress of implementation as less
  than 70 percent complete.

  OIG Reply: We consider this recommendation resolved but not implemented.



                                                                                 15
8. Enforce collections on employee loans to recoup outstanding balances from
   current and former JFLH employees.

   VI Response: The Governor concurred with this recommendation, noting
   JFLH’s ongoing collection efforts and the issuance of demand letters. JFLH’s
   internal action plan rated the progress of implementation as less than 70
   percent complete.

   OIG Reply: We consider this recommendation resolved but not implemented.

9. Monitor contracts, agreements, leases, and employment terms to prevent
   overpayments and the issuance of payments without valid contracts.

   VI Response: The Governor concurred with this recommendation and outlined
   ongoing efforts to monitor such agreements through reorganization, internal
   auditing, and the Board of Directors’ involvement. JFLH’s internal action plan
   reported this to be about 90 percent completed.

   OIG Reply: We consider this recommendation resolved but not implemented.

10. Uniformly enforce reimbursement for overpayments in the form of employee
    incentives and wages.

   VI Response: The Governor concurred with this recommendation, responding
   that the use of payment demand letters and a collection process, which may
   include garnishing wages, is ongoing. JFLH’s internal action plan reported this
   to be less than 70 percent completed.

   OIG Reply: We consider this recommendation resolved but not implemented.

11. Adhere to internal rules and regulations by securing contracts for purchases
    and services.

   VI Response: The Governor concurred with this recommendation, reporting
   that JFLH has implemented internal audit reporting to the Board of Directors’
   Finance Committee.

   OIG Reply: We consider this recommendation resolved and implemented.




                                                                                   16
12. Ensure the receipt, review, and filing of supporting reports for all purchases
    and services provided to JFLH. All pharmaceuticals should be accounted for
    and verified as received to ensure that JFLH took possession of all items paid
    for.
    VI Response: The Governor concurred with this recommendation, indicating
    that monthly reviews of contracts are now reported to the Board of Directors’
    Finance Committee. JFLH’s internal action plan considered this action about
    90 percent completed.

    OIG Reply: We consider this recommendation resolved but not implemented.




                                                                                 17
Appendix 1: Scope, and Methodology
Scope
We performed our inspection in accordance with the Council of the Inspectors
General on Integrity and Efficiency “Quality Standards for Inspections.” We
performed our evaluation work from May 9, 2011, to December 31, 2011 at the
Juan F. Luis Hospital (JFLH) on St. Croix and reviewed activities and
transactions that occurred during calendar years 2009 to 2011, as well as other
periods as appropriate, to better obtain a historical perspective of JFLH’s financial
position. We reviewed audited financial statements from 2004 to 2010, board
minutes from 2007 to 2011, and employee loans issued from 1999 to 2011.

Methodology
To accomplish our objective, we interviewed officials and reviewed financial
reports and records pertaining to patient accounts receivable, third-party
reimbursements, contracts, employment agreements, employee loans, and
revenues. We reviewed the entire universe of employee loans and selected
judgmental samples in the areas of patient accounts receivable, contracts,
employment agreements, and operational transactions. We also consulted with
JFLH’s two accounts receivable contractors and officials from the Center for
Medicare and Medicaid Services.




                                                                                  18
Appendix 2: Questioned Costs
Unrealized Income (Poor Collection Efforts)
Patient Accounts Receivable                                  $105,750
Third Party Reimbursements                                   $245,950
Internal Service Arrangements                                 $16,150
Total                                                       $367,850
Funds To Be Put to Better Use
Recurring Expenses (Finance Charges)                         $672,800
Total                                                       $672,800
Questioned Costs (Lack of Monitoring)
Unnecessary/Unreasonable (Employee Loans)                    $211,000
Ineligible Costs (Overpayments & Payment w/o Agreements)     $135,660
Unsupported Costs                                           $1,777,930
Total                                                      $2,124,590
Overall Monetary Impact - JFLH                             $3,165,240




                                                                   19
Appendix 3: Virgin Islands Response
The response from the Governor of the Virgin Islands follows on page 21.




                                                                           20
                             THE UNITED STATES VIRGIN ISLANDS
                                       OFFICE OF THE GOVERNOR
                                         GOVERNMENT HOUSE
                                    Charlotte Amalie, V.I. 00802
                                           340-774-0001



                                           July 30, 2012



Ms. Mary L. Kendall
Acting Inspector General
United States Department of the Interior
Office of the Inspector General
Caribbean Field Office
Ron deLugo Federal Building, Room 207
St. Thomas, Virgin Islands 00802

Dear Ms. Kendall:

        This correspondence acknowledges receipt of your letter dated May 31st, 2012 regarding
the U. S. Department of the Interior's Office of the Inspector General Draft Evaluation Report
No. VI-EV-VIS-0002-2012, Juan F Luis Hospital and Medical Center (JFLH or JFL). The draft
evaluation report essentially provides recommendations in support of two key financial areas
necessitating greater focus and attention from the JFL team: the management of revenues and
expenses. My administration appreciates your assistance in this endeavor and submits the
following response.

        JFLH is cognizant of the issues raised and in concurrence with the recommendations in
the draft report (Exhibit I). As noted by Chief Executive Officer, Mr. Jeff Nelson, "Since the
declaration of a financial emergency in March 2011, JFL has engaged in open, transparent and
ongoing communications regarding its financial challenges." Recognizing the need to be vigilant
with addressing its revenue and expense challenges, JFL has already taken steps to correct
deficiencies, prior to and subsequently, since receiving the evaluation report. Accordingly,
changes and improvements, inclusive of admitting and discharge planning, reduction in
medication costs and errors, and redressing discharge time, are underway in key financial
processes.

       The aforementioned and related measures are expected to positively impact JFL's
revenues for the fiscal year. JFL's Income Statement for June 2012, reflects an increase in both
month-to- date and year-to-date revenues as compared to the same period in the prior year (FY
2011). Similarly, there has been a decrease in expenses from June 2011 to June 2012, and JFL
expects its total operating expenses for FY 2012 to be less than they were in FY 2011.
Mary L. Kendall
July 30 2012
Page2


        As indicated in your May 31St letter, the Juan F. Luis Hospital and Medical Center is the
primary provider of healthcare services to the people of the Virgin Islands and transient guests,
in the district of St. Croix. As such, it is imperative that its internal financial controls be
strengthened, coupled with adoption of creative/innovative ways to generate and/or collect much
needed revenues. Such progress will help to ensure the continuity of providing quality
healthcare to the general public.

        Thank you for your draft evaluation report. I am confident that CEO Nelson and his team
will continue to proactively make positive strides toward resolution of JFL's fiscal concerns.

                                            Sincere~


                                                 ~~Cr
                                               vernor




Enclosure
                                   Response by the Government of the Virgin Islands
                                Draft Evaluation Report- Juan F. Luis Hospital and Medical Center,
                                               (Report No. VI-E V- VIS -0002-2011)

                                                                                 EXHIBIT I

Finding # 1: Management of Revenues
Governor Juan F. Luis Hospital's QPL) chronic inability to generate a steady flow of revenue has
been a major contributor to its current fiscal position. Although JFL faces annual losses in the tens
of millions of dollars, it has not taken sufficient steps to ensure that patient accounts receivable,
third-party reimbursements, and internal service agreements have been collected in a timely,
effective manner. In addition, JFL has not raised its rates to reflect current health care costs.

Recommendations QFL)
1. Consistently apply collection procedures, including timely follow-ups on unpaid bills to all
   primary and secondary insurance carriers
2. Comply with precertification and disclosure regulations set forth by certain insurance carriers,
   such as CIGNA and VA, to increase the likelihood of reimbursements
3. Closely monitor all revenue-generating arrangements to ensure all revenues due are efficiently
   collected
4. Frequently review rates to capture the rising cost of providing health care services
5. Fully implement the terms of the agreement with CMS to ensure future Medicare and Medicaid
   funding

Government's Response
JFL concurs with the finding and recommendations. However, as an answer to the decreasing tax
appropriations provided to JFL from the Government of the Virgin Islands, during Fiscal Years
(FY) 2011 (FY11) and 2012 (FY12) JFL has increased its charges to be on par with those of the
Schneider Regional Medical Center (SRMC). As a result, JFL's FY12 revenues for June and for the
year to-date period through June are significantly higher than the revenues for the same time periods
in FY11. The table below displays the increase in gross and net patient revenues.


Governor Juan F. Luis Hospital & Medical Center
Financial Statement Overview for June 2012
As ofJuly 17, 2012
Source: JFL Finance

Income Statement

Gross Revenues                                  $87,301,375       $63,698,838     $23,602,537     37.1%    $120,798,198     $86,879,638   $33,918 1559       39.0%
Subtotal Contractuals/Bad Deb tiC               $52,385,893       $34,828,854     $17,557,038     50.4%     $72 ,483 ,987   $47,932,993   $24,550,993        51 ,2%

Net Patient Revenues                            $34,915,482       $28,869,984      $6,045,498     20.9%     $48,314,211     $38,946,645    $9,367,566        24.1%
Other Revenues                                    $757 965           $754 639          $3,326      0.4%        $955.752      $1,138.086     ($182.334)      -16.0%
Subtotal Operating Revenues                     $35,673,447       $29.624,622      $6,048,825     20.4%     $49,269,963     $40 084,731    $9,185,232        22.9%

Non-Operating Revenue                          $54,027,91 I                  $0   $54,027,911              $54,027,911               $0   $54,027,9I I '    #DIV/0!
U.S.V.I. Capital Transfers                                   $0              $0             $0                       $0        $200,000      ($200,000)    -100.0%
Tax Appropriations                           • $ 1 6 ,9 1 0,09~   S l 8,416,899   ($1 ,506,8051    -8.2%   $2 I,506,094     $23,977,957    ($2,47I,863)      -I0.3%
Subtotal Tax Appropriations                     '70,93Q,OQS       SUJ,4 16,899    S52,51/,106 ' 285.2%     $75,534,005      $24,177,957   $51,356,048       212.4%

Total 11cash" revenues- with non-oper.        $106,611 ,452       $48,041,521     $58,569,931     I21.9%   $124,803,968     S64,162,688   $60,541,280       94.2%

Total "cash" revenues- without debt relief     $52 ,583,541       $48,041,521      $4,542,0I9      8.6%     $70,776,057     $64,262,688    $6,513,369         9.2%
Response by the Government of the Virgin Islands
Draft Evaluation Report- Juan F. Luis Hospital and Medical Center,
(Report No. VI-EV-VIS-0002-2011)
Asoj]ufy25, 2012
Page 2 of13



Further, as of December 2011, JFL's patients' net accounts receivable, the amount expected to be
collected in cash, was $11.5 million. JFL accounts for the receivables based on Generally Accepted
Accounting Principles (GAAP).

Corrective Action
Recommendations 1 to 5
JFL has implemented a revenue cycle team approach with a target to capture and collect 100 percent
of all charges. The revenue cycle team meets at least twice a week to address and implement actions
and systems to generate more revenues, on the same book of patient business, and collect all the
cash JFL is owed. To date, the revenue cycle team has:
~   Reduced the day's final not billed claims from more than nine (9) days to five (5) days
~   Implemented new admission screens to improve the verifiability of patient's contact and
    insurance information
~   Implemented the last phases of the Craneware charge capture software
~   Identified a Charge Capture Coordinator to ensure each department's charges are
    recorded/captured

JFL's Revenue Cycle Team, who meet at least twice a week, has been working toward implementing
corrective measures including:
~   Producing timely bills. During the month of May, JFL sent out more than 9,000 bills to patients.
    This is the highest number of bills sent out by JFL in any month.
~ Offering an amnesty program for self-pay accounts. The program provides significant discounts
  to patients who pay their JFL bills. For bills paid in full by June 30, patients received a 50
  percent discount. For bills paid in full by July 31, patients received 25 percent discount.
  Through June 30th, the amnesty program raised an additional $230,000 over the amounts
  collected in May. JFL expects the amnesty program to bring in more than $300,000 in additional
  cash.
~ Implementing new charge collection and accounts receivable work re-design programs including:
      o Implementing Craneware software to capture charges
      o Implementing daily Turn Around Documents to track claim collections
      o Implementing charges for services performed

Compliance with the Centers for Medicare and Medicaid S eroices
JFL has implemented and entered into Systems Improvement Agreements (SIAs) with CMS to
improve: Chronic Dialysis (JFL has now been awarded 5 Diamond Status by CMS' Contractor,
Quality Insights Network 3), Patient Care Assessment, Wound Care Management, and Nursing care
and leadership.
~   Per the SIAs, JFL has complied with contracting with industry expert firms to lead JFL to full
    compliance with CMS
Response by the Government of the Virgin Islands
Drcift Evaluation Report- Juan F. Luis Hospital and Medical Center,
(Report No. VI-EV-VIS-0002-2011)
As oj]ujy 25, 2012
Page 3 of13


~ JFL has implemented daily work plans of correction to address CMS' and the community
    concerns regarding the above. JFL team members are assigned to implement and report the
    work in progress at least weekly. The work plans are submitted to CMS monthly. There are
    monthly calls with CMS to review the work plans and the results achieved to date.
~   The SIA for the Dialysis Unit is set to expire on December 31, 2012
~   The SIA for the entire hospital is set to expire on November 28, 2014
~ Both SIAs could be extended depending upon the results of CMS' onsite survey of JFL
~   The updated work plans submitted to CMS are available onJFL's website www.jflusvi.org under
    the transparency tab.

Responsible Party (ies):
~   Revenue Cycle Team- Mrs. Sezelle Gabriel-Banwaree, Assistant CPO
~   CMS SIA Hemodialysis unit- Mr. Larry McGowan, Interim Manager
~   CMS SIA Whole Hospital- Work Plan Team
Implementation date:        March 2011
Due Date:                   December 2012



Finding #2: Management of Expenses
JFL's financial position also has deteriorated due in large part to its inability to balance expenses
against revenue. Although strapped for cash, JFL has not exercised fiscal restraint. The resulting
debt has hindered payment of outstanding bills as they come due and plunged the hospital into an
ever-deepening cycle of untimely payments that require both service charges and late fees, and
jeopardize long-standing relationships with vendors. In addition, JFL has not properly monitored its
agreements to lessen the frequency of overpayments, pre-payments, and unsupported payments.

Recommendations QFL)
6. Review staffing levels to determine potential alternatives that accommodate sustainable revenue
   streams
7. Negotiate with major creditors to create better repayment terms and lower accounts payable
   balances
8. Enforce collections on employee loans to recoup outstanding balances from current and former
   JFL employees
9. Monitor contracts, agreements, leases, and employment terms to prevent overpayments and the
   issuance of payments without valid contracts
10. Uniformly enforce reimbursement for overpayments in the form of employee incentives and
    wages



                                                                                                  25
Response by the Government of the Virgin Islands
Drcift Evaluation Report- Juan F. Luis Hospital and Medical Center,
(Report No. VI-EV-VIS-0002-2011)
A s of]ufy 25, 2012
Page 4 of13


 11. Adhere to internal rules and regulations by securing contracts for purchases and services
 12. Ensure the receipt, review, and filing of supporting reports for all purchases and services
     provided to JFL. All pharmaceuticals should be accounted for and verified as received to ensure
     that JFL took possession of all items paid for

Government's Response
JFL concurs with the finding and recommendations; however, JFL notes the following insights
regarding its overall expense management. As noted in the table below, JFL's expense management
programs are increasingly taking effect. JFL's subtotal operating expenses for June 2012 was 17.4%
less costly than for June 2011. For the year to-date through June 2012, JFL's expenses were only up
by 2.8% over the same time period for the prior year. JFL expects total operating expenses for the
year ending FY12 September 30 to be significantly less than the total operating expenses for the
same time period in FY11.

 Governor Juan F. Luis Hospital & Medical Center
 Financial Statement Overview for Jun e 2012
 Ali ofJuly 17, 2012
 Source: JFL Finance

 lncome Statement

 Expenses
 Subtotal Compensation and Travelers      $3,501,797   $4,369, 790      (_$867,9932   -19 .9% $33,394,1 95   $34,644,283    {:! I ,250,0882    -3.6%
 Supplies                                   $937,660   $1,300,965       ($363 ,305)   -27 .9% $8,661,504     $10 ,089,922   ($1 ,428,417)     -14 .2%
 Professional Fees/Services                 $959,133   $1,136,212        ($177,079)   -15 .6% $10,515,277     $8,236,023      $2,279,254       27 .7%
 Other Expenses                             $510 650     $343,099         $167 551     48.8% $4,496,551       $2,565,846      $1 ,930,705      75.2%
 Subtotal Operating Expenses              $5,909,241   $7,150,066    {:! 1,240,8252   -17.4% $57,067,527      55,536.073     $1,531,454         2.8%




Corrective Actions

Recommendation 6: Review staffing level
JFL implemented several key steps including:
);>-   Eliminating eighty six (86) full time employment positions on February 28, 2012
);>-   Deploying a Registered Nurse (RN) dominated care model with targeted daily RN to Patient
       Ratios
);>-   Continuing to reduce overtime hours

Compensation Cost Changes
JFL's largest single operating expense is compensation. On February 28, 2012, JFL eliminated
eighty-six (86) full time equivalent positions including Certified Nursing Assistance and Licensed
Practical Nurses, from which JFL expects to reduce its total compensation costs by approximately
$4 million over a twelve month period. Since February 28, 2012, JFL has experienced additional
lower compensation costs due to lower overtime costs:
                                                                                                                                                  26
Response by the Government of the Virgin Islands
Draft Evaluation Report- Juan F. Luis Hospital and Medical Center,
(Rport No. VI-EV-VIS-0002-2011)
As of]ufy 25, 2012
Page 5 of13




);>   March 2012 had 426 fewer overtime hours than in February 2012
);>   April2012 had 532 fewer overtime hours than in March 2012
);>   May 2012 had lower overtime per pay period than the previous months

Nursing accounts for the largest segment of JFL's compensation costs. To optimize nursing
compensation, on February 29, 2012,JFL implemented:
);>   RN to Patient Ratio system to deploy RNs with a business discipline. Using RN to Patient Ratio
      union standards, JFL deploys approximately one RN to every five or fewer patients. This
      deployment is modified by the acuity (intensity of an illness) of the admitted patients or the
      services rendered on an outpatient basis. JFL monitors and adjusts the deployment of RNs
      three times a day, seven days a week.
);>   JFL further recognizes the cost of traveling RNs. As of June 30th,JFL has one hundred eighty
      five (185) RNs of which sixty (60) are contracted to JFL from nurse travel agencies. To reduce
      the number of traveling RN s under contract, JFL has negotiated through the Office of
      Collective Bargaining with the RN Virgin Island Nursing Association's Collective Bargaining
      Unit for higher market competitive wages for RNs effective October. JFL's objective is to raise
      the salaries of local permanent RN s to market rates in order to attract and retain more local and
      permanent RNs. This will eliminate the need for and expense of high cost traveling RNs. JFL
      estimates the cost savings from this action will exceed $1 million annually. JFL anticipates a
      reduction of travel RNs by 90 percent by December 30, 2012.

Compensation Cost Reduction - Earfy Retirement Programs
);>   In June 2011, a voluntary, early retirement incentive was offered to employees with twenty-five
      years of service or more and at least fifty (50) years of age, as well as to other interested parties.
      Twenty-nine (29) employees with more than thirty (30) years of service voluntarily participated.
);>   In October 2011, JFL offered a second and final round of early retirement incentive program to
      team members. JFL anticipated yielding approximately $3.5 million in savings for Fiscal Year
      2012. Five (5) team members accepted that package.

Responsible Party(ies)
Reduction in Force: Mr. Jeff A. Nelson, Chief Executive Officer
Management of Overtime: Terry Lynch, CNO
Implementation Date: February 28, 2012

Recommendation 7: Negotiate with major creditors
Cash Flow Management- Debt Relief
);>   JFL is actively working with accounts payable creditors for debt relief. JFL currently owes more
      than $34 million to creditors as of April 30, 2012. JFL expects to complete the agreement with
                                                                                                           27
Response by the Government of the Virgin Islands
Drtift Evaluation Report-Juan F. Luis Hospital and Medical Center,
(&port No. VI-EV-VIS-{)002-2011)
As of]ufy 25, 2012
Page 6 of13


    one creditor that will reduce JFL's payables by about $5 million. JFL continually negotiates with
    creditors to reduce the debt JFL owes.

Supplies Cost Reduction- Group Purchasing
~ In January 2012, JFL joined Premier, a Group Purchasing Organization (GPO) to reduce the
    cost of supplies and equipment; in particular, JFL signed an agreement to reduce its
    phannaceutical and medical/ surgical supplies. The recent contract with Premier is expected to
    reduce JFL's total supplies costs by an estimated $700,000 annually over the experience of Fiscal
   Year 2011 (FY'11).

Professional Fees Reductions- Physician and Locum Tenums
~ JFL currendy pays approximately $5 million annually in physician compensation and $4 million
    in locum tenums costs to cover the physicians while they are not on the island. JFL is currendy
    examining ways to work to reduce these costs and/ or find a mote effective manner to partner
    with physicians to generate revenues for JFL and the physicians at a more effective cost.

Responsible Party (ies):
~   Debt relief- .Mx. Jeff A. Nelson, Chief Executive Officer
~   Supply cost reductions- Ms. Hazel Philbert-Thomas, Director of Materials Management
~   Professional fee reductions - .Mx. Jeff A. Nelson, Chief Executive Officer

Implementation Date: January 2012


Recommendation 8: Enforce coUections on employee loans
JFL has issued payment demand letters for advance payments to employees, and the collection
        .       .
process ts on-gotng.

Responsible Party (ies):
~ Repayment of loans -Ms. Aishe Nisbett, Asst. Chief Financial Officer and .Mxs. Royette Russell,
  Esq., General Counsel
Implementation Date: September 2011 and ongoing

Recommendation 9: Monitor contracts/agreements
~ JFL reports of the listing of executed contracts on a monthly basis to the JFL's Finance
    Committee of the Board of Directors as well as reorganized JFL's management reporting
    system to include establishing an Internal Auditor reporting direcdy to JFL's Board of Director
    and its Finance Committee. Each month, JFL reports its professional, service and other
    contracts to the Finance Committee of the JFL Board of Directors for review and oversight.


                                                                                                  28
Response by the Government of the Virgin Islands
Draft Evaluation Report- Juan F. Luis Hospital and Medical Center,
(Report No. VI-EV- VIS-0002-2011)
As offufy 25, 2012
Page 7 of13


~   OIG's Draft Evaluation Report indicated JFL's failure to enter into formal (not "valid")
    agreements; however, this was not the reason that JFL was owed $36,300 for work that was not
    performed. A requisition is a contract and legal recourse is available to JFL for failure to
    perform under that contract. Such recourse includes reimbursement, specific performance and
    damages for breach. JFL contacted a contractor who has performed the work. JFL has taken
    action to recoup the $36,300.

~ The Draft Evaluation Report indicated a concern regarding the agreement with a Pathologist.
    The agreement provides workspace and certain supplies for the analysis of specimens by the
    Pathologist. In return, the Pathologist agrees to pay JFL $25.00 for each specimen reviewed no
    later than the tenth day of the month following the service. Checks and balances have been
    implemented. The specimens are logged into the JFL Meditech System and reconciled against
    the monies paid to JFL by the doctor. The contract expired in June of 2011 and the parties
    entered into discussions including the need to increase monitoring. Additionally, prior to the
    audit JFL was acutely aware of the need for checks and balances and has made plans to conduct
    more frequent audits of the statements and payments.

~ The Draft Evaluation Report noted that a JFL employee who temporarily acted in an executive
    management level position continued to receive elevated compensation after the position was
    filled. The decision to continue payments to this employee was not an oversight, but rather a
    Chief Executive Officer decision. The employee continued to receive payments until a proper
    transition of roles could be established. Once the employee's new role was changed,
    compensation was changed as well.

Responsible Party (ies):
~ Contract review and management- Mrs. Royette Russell, Esq. General Counsel and Ms. Dyma
   Williams, Risk Management and Compliance
Implementation Date: September 2011 and ongoing


Recommendation 10: Enforce reimbursement for overpayment (employees)
JFL has issued payment demand letters and the collection process, which may include garnishing
wages, if necessary, is on-going.

Responsible Party (ies):
~ Reimbursement for overpayment- Ms. Aishe Nisbett, Asst. Chief Financial Officer
Implementation Date: September 2011 and ongoing




                                                                                                 29
Response by the Government of the Virgin Islands
Draft Evaluation Report- Juan F. l..Jiis Hospital and Medical Center,
(ReportNo. VI-EV-VIS-0002-2011)
As of]u!J 25, 2012
Page 8 of13


Recommendation 11: Adhere to intemal rules & regulations (purchases/services)
JFL has implemented internal audit reporting of this matter to JFL Board's Finance Committee, and
linked legal sufficiency review and Finance reporting of contracts to JFL Board's Finance
Committee.

Responsible Party (ies):
» Mrs. Royette Russell, Esq. General Counsel
»  Ms. Dyma Williams, Risk Management and Compliance
Implementation Date: July 2012 and ongoing

Recommendation 12: Ensure review and access to supporting reports (purchases/services)
JFL reports monthly review of contracts to JFL Board of Director's Finance Committee and the JFL
Board of Directors.

Responsible Party (ies):
» Mrs. Royette Russell, Esq. General Counsel
»  Ms. Aishe Nisbett, Assistant CPO
»  Ms. Dyma Williams, Risk Management and Compliance
Implementation Date: FY10




                                                                                              30
Response by the Government of the Virgin Islands
Drcift Evaluation Report-Juan F. Luis Hospital and Medical Center,
(Report No. VI-EV-VIS-0002-2011)
As of]ufy 25, 2012
Page 9 of13


Appendix I- JFL's Financial Statements through June 30,2012
Governor Juan F. Luis Hospital & Medical Center
Financial Statement Overview for June 2012
As ofJuly 17,2012
Source: JFL Finance
                                             For Month June
Income Statement                               FYI2         FYll

Revenues including tax$
Gross Rewnues                                   $1121652608    $820582762    $32106,846 "     38.6%
Contractuals/Deductions                          $3,020!933    $3~33,882      {$3'12,949}     -9.4%
Subtotal Contractuals                            $3!020,933   $3,333,882      {$312!949) ,    -9.4%
Provision for Doubtful Accounts                  $3,103,971   $1,298,351     $1,805,620      139.1%
Charity/Administrative Discounts                   $574,461     $3202288       $254,173       79.4%
Subtotal Bad Debt and Charity                    $3,678,432   $1,618,639     $2,059,792      127.3%
Subtotal Contractuals/Bad Debt/C                 $6,699,365   $4,952,521     $1,746,843       35.3%
Net Patient Revenues                             $4,466,243   $3,106,241     $1,360,002       43.8%
Other Revenues                                      $65,929     $110,328       {$44,399)     -40.2%
Subtotal Operating Revenues                      $4,532,172   $3 ,216,569    $1 ,315!603      40.9%
                                            ...
Non-Operating Rewnue                                     $0            $0             $0
U.S.V.I. Capital Transfers                               $0            $0             $0
                                            ~
Tax Appropriations                               $1,908~32    $1,942,303       {$34,0712      -1.8%
Subtotal Tax Appropriations                      $1,908,232   $1,942,303       (}34,071)     -1.8%
Total "cash" revenues - with no n-oper.          $62440!404   $52158,872     $1J81,532       39.1%
Total "cash" revenues - without debt relief      $6!440!404   $5,158!872     $1J81,532       24.8%

Expenses
Subtotal Compensation and Travelers             $3,501,797    $4,369,790       (}867,9932    -19.9%
Supplies                                          $937,660    $1,300,965       ($363,305)    -27.9%
Professional Fees/Services                        $959,133    $1,136,212       ($177,079)    -15.6%
Other Expenses                                    $510,650      $3432099        $167,551      48.8%
Subtotal Operating Expenses                     $5,909,241    $7,150,066     ($1,240,8252    -17.4%

EBIDA- with non-operating revenues               $531!163 {$1,991,194}       $2,522,357 -126.7%
EBIDA- with non-op and w/o debt relief           $5312163 {$1,991,194)       $2,522,357 -126.7%

Depreciation Expense                             $259,619       $278,563       ($18,944)    -6.8%
Interest Income                                     ($104)         ($931)          $827    -88.8%
Interest Expense                                     $390         $1 !3 80        {$990} -71.7%
Subtotal                                         $259,905       $279,012       {$19,106) , -6.8%

Net Income (loss)                                $271~58      {$2,270!206}   $2!541,463 -111.9%



                                                                                                      31
Response by the Government of the Virgin Islands
Draft Evaluation Report-Juan F. Luis Hospital and Medical Center,
(Report No. VI-EV-VIS-0002-2011)
As of]ufy 25, 2012
Page 10 of13


 Governor Juan F. Luis Hospital & Medical Center
 Financial Statement Overview for June 2012
 As ofJuly 17, 2012
 Source: JFL Finance
                                               YTD Thru June
 Income Statement                                FYI2        FYll

Revenues including tax$
Gross Revenues                                 $8723012375    $632698,838     $23!6022537     37.1%
Contractuals/Deductions                        $29,987,787    $20,783,108      $9,204!678 ,. 44.3%
Subtotal Contractuals                          $29,987,787    $20,783,108      $9,2041678     44.3%
Provision for Doubtful Accounts                $20,321,487    $11,070,299      $9,251,189     83.6%
Charity/Administrative Discounts                $2,076,619     $2,975,448       ($898,8292   -30.2%
Subtotal Bad Debt and Charity                  $222398,106    $14,0451746      $8,352,360     59.5%
Subtotal Contractuals/Bad Debt/C               $52,3852893    $34,828,854     $17.557,038     50.4%
Net Patient Revenues                           $34,915,482    $28,869,984      $6,045,498     20.9%
Other Revenues                                    $757,965       $754,639           $3,326     0.4%
Subtotal Operating Revenues                    $35,673 ,447   $291624!622      $6,048,825     20.4%
Non-Operating Revenue                          $54,027,911             $0     $54,027,911
U.S.V.I. Capital Transfers                               $0            $0               $0
                                           'I
Tax Appropriations                             $16,910,094    $18 416 899     {$1 ,5061805)   -8.2%
Subtotal Tax Appropriations                    $70,938, 005   $18,416,899     $52,521,106 ,. 285.2%
Total "cash" revenues - with no n-oper.       $106,611,452    $48,041,521     $58!569,931    121.9%
Total "cash" revenues - without debt relief $52,583,541       $48,041,521      $4,542,019      8.6%

Expenses
Subtotal Compensation and Travelers           $33,394,195     $34,644,283     (}1,250,088)      -3.6%
Supplies                                       $8,661,504     $10,089,922     ($1 ,428,417)    -14.2%
Professional Fees/Services                    $10,515,277      $8,236,023      $2,279,254       27.7%
Other Expenses                                 $4,496,551      $2,565,846      $1!930,705       75.2%
Subtotal Operating Expenses                   $57,067,527     $55,536,073      $1,531,454        2.8%

EBIDA- with non-operating revenues            $49,543!925     {$7 ,494,552)   $57!038!476     761.1%
EBIDA- with non-op and w/o debt rei ief       ($4,483,986)    {$7 ,494,552)    $3,0102565      40.2%

Depreciation Expense                           $2,721,063      $2,535,688       $185,375         7.3%
Interest Income                                   ($2,619)       ($13,958)       $11,339       -81.2%
Interest Expense                                   $6,222         $15,251        ($9 029}      -59.2%
Subtotal                                       $2,724,666      $2,536 980       $187,685 ~       7.4%

Net Income (loss)                             $46,819!259 {$10,031,532)       $56!850!791     -566.7%




                                                                                                        32
Response by the Government of the Virgin Islands
Drtift Evaluation Report- Juan F. Llis Hospital and Medical Center,
(Report No. VI-EV-VIS-0002-2011)
As of]u!J 25, 2012
Page 11 of13


Governor Juan F. Luis Hospital & Medical Center
Financial Statement Overview for June 2012
As ofJuly 17, 2012
Source: JFL Finance
                                                                                   12 YE Est. vs. FYll YEAct.
 Income Statement                                 FY12 YEEst. FYll YEAct.                     $           %

Revenues including tax$
Gross Revenues                                    $12027982198    $8628792638     $33!9182559         39.0%
Contractuals/Deductions                            $39,050,586    $262156,696     $12,893 2890
Subtotal Contractuals                              $39,050,586    $26,156,696     $12,893,890         49.3%
Provision for Doubtful Accounts                    $29,633,400    $14,238,960     $15,394,440
Charity/Administrative Discounts                    $3,800,001     $7,537,338     {$3,7372337}
Subtotal Bad Debt and Charity                      $332433,401    $21,776,298     $11,657,103          53.5%
Subtotal Contractuals!Bad Debt/C                   $72,483,987    $47,932,993     $24,5502993          51.2%
Net Patient Revenues                               $48,314,211    $38,946,645      $9,367,566          24.1%
Other Revenues                                        $955,752     $1,138p86        {$182,334}        -16.0%
Subtotal Operating Revenues
Non-Operating Revenue
                                             ..    $49,269l963
                                                   $54,027,911
                                                                  $40,0 84,731
                                                                            $0
                                                                                   $921852232
                                                                                  $54,027,911
                                                                                                       22.9%
                                                                                                     #DIV/0!
U.S.V.I. Capital Transfers                                  $0       $200,000       ($200,000)      -100.0%
Tax Appropriations                          ""     $21,5062094    $23,977,957     {$2,4 712863 2      -10.3%
Subtotal Tax Appropriations                        $75,534,005    $24,177,957     $51,356,048        212.4%
Total "cash" revenues- with non-oper.             $12428032968     $64~62 2688    $60,541,280          94.2%
Total "cash" revenues - without debt relief        $70,776,057    $64,262,688      $6,513,369           9.2%

Expenses
Subtotal Compensation and Travelers               $43,899,587     $44,839,352       ($939,7652         -2.1%
Supplies                                          $11,474,486     $13,965,124     ($2,490,638)        -17.8%
Professional Fees/Services                        $13,392,676     $11,990,735      $1,401,940          11.7%
Other Expenses                                     $6,028,502      $4,825,777      $1,2022725          24.9%
Subtotal Operating Expenses                       $742795,250     $7526202988       {$825,738)         -1.1%

EBIDA- with non-operating revenues                 $50!0082719    {$11~58!300}    $61~67,019         540.3%
EBIDA- with non-op and w/o debt relief             {$4!019,193)   {$11~58~00}      $7!339,107         64.6%

Depreciation Expense                                $3,759,538     $3,387,353        $372,185         11.0%
Interest Income                                        ($3,035)      ($16,574)        $13,538        -81.7%
Interest Expense                                        $7,784        $18,859        {$11,076)       -58.7%
Subtotal                                            $3,764,287     $3,389,639        $374,648         11.1%

Net Income (loss)                                 $46,2442432     ($14,747,939}   $60,992 2371       413.6%




                                                                                                          33
Response by the Government of the Virgin Islands
Drqft Evaluation Report- Juan F. Luis Hospital and Medical Center,
(Report No. VI-EV-VIS-0002-2011)
Asof]ujy25, 2012
Page 12 of13


Governor Juan F. Luis Hospital & Medical Center
Financial Statement Overview for June 2012
As ofJuly 17. 2012
Source: JFLFinance

                                                                                        Ju11e Di ere11ce
Bala11ce Sheet                                                                                                  %

Current Assets
Cash & Cash Equivalent                                 $78,942        $344,607       ($265,666)             -77.1%
Accounts Receivables, Net                          $12,650,389      $9,001,350      $3,649,040               40.5%
Due from Third Party Payers                           $361,142        ($93,157)       $454,299
Imentories                                          $1,439,839      $2,392,705       ($952,866)             -39.8%
Prepaid Expenses                                      $103,784         $67,375         $36,409
Deposits on equipment                               $1,134,593         $96,940      $1,037,654             1070.4%

Total Current Assets                               $15.768.689     $11,809,820      $3,958,869              33.5%

Restricted Assets
Cash & Cash Equivalent                                $586,234      $1,545,243       ($959,009)             -62.1%
Pledges/Other Receivables                                   $0         $75,000        {$75,000}            -100.0%
Total Restricted Assets                               $586,234      $1,620.243     ($1,034.009)             -63.8%

Capital Assets, Net                                $40,944,148     $44,295,341     ($3,351,193)              -7.6%

Investment in Advanced Radiology LLC                $2,806,800      $2,437,051        $369,749               15.2%

Total Assets                                       $60,105,871     $60,162,455        ($56,584)              -0.1%

Liabilities
Current Liabilities
Current Capital Lease Obligations                      $23,970         $61,114        ($37,144)             -60.8%
Accounts Payable                                   $22,185,150     $19,292,235      $2,892,915               15.0%
Accrued Payroll                                     $1,090,190      $1,397,666       ($307,476)             -22.0%
Accrued Vacation                                    $2,479,847      $3,298,796       ($818,949)             -24.8%
Accrued Expenses                                    $9,047,940      $4,450,165      $4,597,775              103.3%
Due to U.S. Virgin Islands Government                        $0    $49,815,669    ($49,815,669)            -100.0%
Due to Water andPo\ver Authority                    $7,018 ,274     $4,310,833      $2,707,441               62.8%
Deferred Revenue                                             $0      $500,000        ($500,000)
Total Current Liabilities                          $41,845,370     $83,126,477    ($41 ,281, I 07)          -49.7%

Capital Lease Obligations                              $51,787        $237,319       {$185,531}             -78.2%
Total Liabilities                                  $41,897,157     $83,363,795    ($41 ,466,63 8)           -49.7%

Net Assets (Deficit)
Invested in capital assets, net of related debt    $40,868,391 $43,996,908        ($3, 128,517)              -7.1%
Restricted - Expendable for Capital Acquisitions      $586,234   $1,620,243       ($1 ,034,009)             -63.8%
Unrestricted                                       (23,245,912) (68,818,493}      $45,572,581               -66.2%
Total Net Deficit                                  $18,208,714 {$23,201,341)      $41,410,055              -178.5%

Total Liabilities and Net Assets (Deficit)         $60, I 05,871   $60.162,455        ($56,5852              -0.1%



                                                                                                                     34
Response by the Government of the Virgin Islands
Drcift Evaluation Report-Juan F. Luis Hospital and Medical Center,
(Report No. VI-EV-VIS-0002-2011)
As oj]u!J 25,2012
Page 13 of13


Appendix II
Specijic Claims Noted in Drcift Report
Per the current agreement with CIGNA Insurance, JFL is reimbursed for covered services rendered
to patients with CIGNA Insurance at a ten percent (10%) discount off of the billed charges less any
applicable coinsurance, co-payments, and deductibles. For the particular claim with a balance of
$92,418 of late charges from October 2010,JFL has billed CIGNA Insurance for the remaining
balance.

JFL continues to follow-up on claims with the Virgin Islands Workers' Compensation
Administration, the VA, and other government agencies regarding payment for all outstanding
claims.

Additional Attention to Expense Management Warranted
~   Admitting and discharge planning. JFL is implementing national guidelines to establish
    expectations of a patient's length of stay and treatment protocols. This process will reduce JFL's
    operating expenses by more than $1 million through eliminating waste and inefficiencies once
    the guideline system is fully functional.
~   Reduction in medication costs and errors. JFL implemented a new pharmacy purchasing
    program that has resulted in saving JFL more than $7 5,000 per month. JFL is also currently
    implementing new pharmacy procedures to reduce medication errors that cost JFL thousands of
    dollars annually.
~   Discharge time. JFL is in the process of implementing a discharge time of 11 am. Patients will
    be able to have a more predictable time to have family members pick them up. The program
    will save JFL more than $100,000 over a twelve month time period.
~   Monthly contract reporting. JFL has implemented a process to keep the JFL Board of Directors
    informed as to the number, names and terms of each professional and service contract on a
    monthly basis.

Also see attached, "Claims Submission" and "Monitoring Agreements" Project Tide under
Revenue Management (Improvement Category) on the Governor Juan F. Luis Hospital & Medical
Center Project Action Plan as of May 16, 2012 (Appendix III).




                                                                                                   35
                                36
                 Appendix III




Mattultevie.'v
Appendix 4: Status of
Recommendations
  Recommendations          Status     Action Required

                                    Continue on-going
                    Resolved; not
         1                          efforts towards full
                    implemented.
                                    implementation.


                                    Continue on-going
                    Resolved; not
         2                          efforts towards full
                    implemented.
                                    implementation.

                                    Continue on-going
                    Resolved; not
         3                          efforts towards full
                    implemented.
                                    implementation.


                                    None; continue newly
                    Resolved and
         4                          implemented practice
                    implemented.



                                    Continue on-going
                    Resolved; not
         5                          efforts towards full
                    implemented.
                                    implementation.



                                    Continue on-going
                    Resolved; not
         6                          efforts towards full
                    implemented.
                                    implementation.



                                    Continue on-going
                    Resolved; not
         7                          efforts towards full
                    implemented.
                                    implementation.




                                                           37
                     Continue on-going
     Resolved; not
8                    efforts towards full
     implemented.
                     implementation.



                     Continue on-going
     Resolved; not
9                    efforts towards full
     implemented.
                     implementation.



                     Continue on-going
     Resolved; not
10                   efforts towards full
     implemented.
                     implementation.



     Resolved and    None; continue newly
11
     implemented.    implemented practice



                     Continue on-going
     Resolved; not
12                   efforts towards full
     implemented.
                     implementation.




                                            38
                                    


            Report Fraud, Waste,                                      
            and Mismanagement
                                       
                  Fraud, waste, and mismanagement in
                  government concern    everyone: Office
                of Inspector General staff, Departmental
                 employees, and the general public. We
                    actively solicit allegations of any
                           and wasteful practices, fraud,
                inefficient
                     and mismanagement related to
               
                 Departmental or Insular Area programs
                                                         
                     and operations.  You can report
                    allegations to us  in several ways.
                                        
                                    
                                    
     By Mail:           U.S. Department of the Interior  
                        Office of Inspector General  
                        Mail Stop 4428 MIB  
                        1849 C Street, NW  
                        Washington, D.C. 20240  
      
     By Phone:          24-Hour Toll Free                               
                                                            800-424-5081
                        Washington Metro Area               202-208-5300
                                                                        
      
     By Fax:            703-487-5402
      
     By Internet:       www.doioig.gov
  
                                                                            
